The Law Office of Stacy Scheff
12/23/2020

RE: Shinn v. Baker Case No: 20-479
Motion to Extend Time to File Opposition to Petition for
Certiorari

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC
20543-0001
Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4 and this Court's March 19, 2020 general order,
Appellee Ryan Baker respectfully moves for an extension of time for filing his response to
Appellant David Shinn's Petition for Writ of Certiorari in David C. Shinn v.Ryan Robert
Baker Case No. 20-479 until March 6, 2021.
Appellee's attorney is a sole practitioner in a very busy office focused on prisoner's civil
rights, and has been slowed in her efforts this year by the difficulties imposed by Covid 19.
Counsel for Appellant did not respond to an inquiry as to whether they objected to this
request.
For the foregoing reasons, Mr. Baker respectfully requests an extension of the deadline
for filing its response to Mr. Shinn's Petition for Writ of Certiorari from January 6, 2021 until
March 6, 2021

P.O. Box 40611, Tucson AZ 85717-0611 * Ph. (520) 471-8333 Fax (520) 300-8033 *
Stacy.Scheff@gmail.com
1

RECEIVED
JAN - 4 2021
OFFICE OF THE CLERK
SUPREME COURT, U,S.

Respectfully submitted,
Stacy Scheff,

Counsel for Appellee

cc.
Drew C. Ensign (Counsel for Appellant)
Christopher P. White (Counsel for Appellant)

P.O. Box 40611, Tucson AZ 85717-0611 * Ph. (520) 471-8333 * Fax (520) 300-8033 *
Stacy.ScheffPgmail.corn

2

